                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A12020006                                                                    Page 1 of 1



                 Faculty members at a University 1 submitted proposals2 in successive years seeking funds
         for instrumentation. The proposals requested funds for different instruments from different
         manufacturers. Each proposal has a small amount of text copied verbatim from each
         manufacturer's website, the text is not differentiated using quotation marks or other
         distinguishing marks, and the source of the copied text is not cited or referenced. We examined
         other NSF proposals submitted by the PI and coPis and found that there was no evidence of
         copied text in those proposals. The case was closed with a letter to the PI emphasizing the need
         to follow proper citation practices.


                   Accordingly, this case is closed.




NSF OIG Form 2 (11102)
